                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                             Office of Audits

                                      Middle East Region Operations



                                  Evaluation of the Antiterrorism Assistance

                                      Program for Countries Under the

                                    Bureaus of Near Eastern Affairs and

                                      South and Central Asian Affairs


                                           Report Number AUD/MERO-12-29, April 2012




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                                  UNCLASSIFIED



Acronyms
ATA        Antiterrorism Assistance
COR        contracting officer’s representative
CT         Bureau of Counterterrorism
DRL        Bureau of Democracy, Human Rights and Labor
DS         Bureau of Diplomatic Security
DS/T/ATA   Bureau of Diplomatic Security’s Office of Antiterrorism Assistance
FAM        Foreign Affairs Manual
GAO        Government Accountability Office
OIG        Office of Inspector General
RSO        regional security officer




                                  UNCLASSIFIED

                                                         UNCLASSIFIED



                                                       Table of Contents 

Section                                                                                                                                 Page

Executive Summary .........................................................................................................................1 


Background….. ................................................................................................................................2 


Evaluation Objectives…. .................................................................................................................5 


Evaluation Results ..........................................................................................................................5 


           Finding A. ATA Program Training Was Provided, but Effectiveness Was
                  Not Measured ...........................................................................................................5         

           Finding B. ATA Program Training Was Not Actively Monitored ....................................15 

           Finding C. ATA Program Was Conducting End-Use Monitoring, but Equipment
                  Records Were Not Accurate and Specific Equipment Needs Were Not 

                  Evaluated................................................................................................................17       


List of Recommendations ..............................................................................................................22 


Appendices
      A. Scope and Methodology................................................................................................23 

      B. Antiterrorism Assistance Program Courses ..................................................................25 

      C. Bureau of Counterterrorism Response ..........................................................................27 

      D. Bureau of Diplomatic Security Response .....................................................................30 


Major Contributors to This Report ................................................................................................37 





                                                         UNCLASSIFIED

                                        UNCLASSIFIED


                                     Executive Summary
        In 1983, Congress authorized the Department of State Antiterrorism Assistance (ATA)
program to enhance the ability of foreign countries’ law enforcement personnel to deter terrorists
and terrorist groups from engaging in international terrorist acts such as bombing, kidnapping,
assassination, hostage taking, and hijacking. From FYs 2002 through 2010, the Bureau of
Diplomatic Security’s Office of Antiterrorism Assistance (DS/T/ATA) and the Bureau of
Counterterrorism (CT) have been provided nearly $1.4 billion for ATA programs worldwide,
with approximately 65 percent of that assistance ($873.3 million) going to programs in North
Africa, the Middle East, South Asia, and Central Asia.

        The Office of Inspector General (OIG) initiated this work under the authority of the
Inspector General Act of 1978, as amended, to evaluate the ATA program. The primary
objectives of this program evaluation were (1) to determine the degree to which ATA programs
had achieved their intended outcomes and (2) to assess whether DS/T/ATA provided effective
oversight of contracts and U.S. Government-provided equipment.

        In FY 2010, the ATA program trained nearly 2,700 participants from countries in North
Africa, the Middle East, South Asia, and Central Asia at a cost of approximately $1,800 per
student per day of training. However, DS/T/ATA could not determine the ATA program’s
effectiveness because it had not developed specific, measurable, and outcome-oriented program
objectives or implemented a mechanism for program evaluation. In addition, DS/T/ATA and CT
were not consulting with the Bureau of Democracy, Human Rights and Labor (DRL), when
selecting partner countries or when determining the assistance to be provided to those countries.
As a result, the Department has no assurance that the ATA program is achieving its intended
statutory purposes or that the overall or individual programs are successful. Further, DS/T/ATA
has no basis for determining when partner countries are capable of sustaining their own ATA
programs without U.S. support.

       DS/T/ATA had not appointed a contracting officer’s representative (COR) to provide
oversight of contractor-provided ATA program training or developed a process for ensuring that
the contractor was meeting contract requirements. DS/T/ATA was conducting periodic end-use
monitoring inspections for the U.S. Government equipment provided under the ATA program.
However, the equipment records were not complete, and the equipment was sometimes unused;
was incompatible with the partner country’s existing equipment; and, in some cases, exceeded
the country’s needs.

        OIG recommended the establishment of a monitoring and evaluation system with clearly
defined and measurable outcome-oriented goals, objectives, and performance indicators;
definition and consistent application of a threshold for sustainability, including establishment of
sustainability timelines for country programs meeting or exceeding the threshold; establishment
of a consultative process with DRL when determining eligible countries for the ATA program;
implementation of a standardized reporting process for in-country oversight of ATA training
contracts; periodic validation of the End Use Monitor database; establishment of a process to


                                             1
                                        UNCLASSIFIED
                                               UNCLASSIFIED



determine whether equipment to be provided a country is appropriate; and a review of the types,
utility, and appropriate disposition of the Iraq ATA Program equipment in storage.

       In its February 17, 2012, response (see Appendix C), CT concurred with its two
recommendations, stating that it was working with DS to improve the monitoring and evaluation
system for assessing ATA performance and that it, DS, and DRL had begun to establish a
process for consulting with DRL on human rights issues in partner countries.

        In its undated response (see Appendix D), DS concurred with three recommendations,
partially concurred with two recommendations, and did not concur with one recommendation.
DS agreed to consult with DRL on human rights issues in partner countries, establish a process
to determine the appropriateness and likely use of equipment transferred to partner countries
prior to providing such equipment, and determine the appropriate disposition of the Iraq
equipment in storage. DS also agreed to work with CT to establish a monitoring and evaluation
system.

       However DS disagreed that sustainability timelines should be developed for all partner
countries. To further address the issue of sustainability, OIG added a recommendation (No. 2)
requesting that DS develop and consistently apply a threshold for sustainability and ensure that
timelines for sustainability are established for those country programs meeting or exceeding that
threshold.

        DS agreed to request in-country confirmation that the ATA program training courses and
deliverables were meeting contract requirements but stated that it had already appointed a COR
and Government Technical Monitor. DS disagreed that it needed to reconcile the ATA program
equipment databases, stating that the two databases should not reconcile because they are used
for different purposes.

        Based on the responses and the actions taken, OIG considers Recommendations 1, 3, 4, 6,
and 7 resolved, pending further action, and Recommendations 2 and 5 unresolved.

      Responses from CT and DS and OIG’s replies to the responses are presented after each
recommendation.

                                                 Background
       The ATA program was established to provide training and equipment to foreign countries
as authorized by the Foreign Assistance Act of 1961, as amended by the International Security
and Development Assistance Authorization Act of 1983.1 The Act of 1983 authorizes the
President to provide assistance to foreign countries in enhancing the ability of their law
enforcement personnel to deter terrorists and terrorist groups from engaging in international


1
 Pub. L. No. 87-195, pt. II, § 571, as added by Pub. L. No. 98-151 § 101(b)(2), 97 stat. 972 (1983) (codified at 22
U.S.C. § 2349aa).

                                                    2
                                               UNCLASSIFIED
                                               UNCLASSIFIED



terrorist acts such as bombing, kidnapping, assassination, hostage taking, and hijacking. The Act
of 1983 states that activities provided under its authority should

        enhance the antiterrorism skills of friendly countries by providing training and equipment
         to deter and counter terrorism;
        strengthen the bilateral ties of the United States with friendly governments by offering
         concrete assistance in deterring terrorism; and
        increase respect for human rights by sharing with foreign civil authorities modern,
         humane, and effective antiterrorism techniques.
        Specific to the issue of human rights, the Act of 1983 requires that DRL be consulted
when the Department is determining the countries that will be provided assistance and the nature
of the assistance provided to each country. The requirement is intended to ensure that assistance
is not provided to known abusers of human rights.

       From 1983 to 2010, the ATA program delivered training to more than 73,000 civilian law
enforcement personnel from 154 partner countries worldwide (the training courses are listed in
Appendix B). From FYs 2002–2010, about 65 percent of ATA program funding went to
countries in North Africa, the Middle East, South Asia, and Central Asia, as shown in Figure 1.


Figure 1. The 22 Countries in North Africa, the Middle East, South Asia, and Central Asia
Receiving Assistance Under the Antiterrorism Assistance Program, FYs 2009-2010*




*For purposes of this report, Turkey is included in the Middle East.
Source: OIG analysis of Bureau of Diplomatic Security data.




                                                    3
                                               UNCLASSIFIED
                                             UNCLASSIFIED



ATA Program Management and Oversight

        Requirements for ATA program management and oversight are contained in the Foreign
Affairs Manual (FAM),2 which designates CT as responsible for overseeing policy for all
Department counterterrorism programs, including ATA training, and coordinating
counterterrorism activities among U.S. Government agencies. As delineated in a memorandum
of agreement between the DS and CT, CT’s policy oversight includes recommending to the
Department’s Office of the Director of U.S. Foreign Assistance which countries should receive
ATA program assistance. The memorandum also instructs CT to provide DS/T/ATA with
specific strategic objectives for the ATA program in partner countries, in regions, and globally.

         DS/T/ATA is the primary implementer of ATA program training and is required3 to
conduct capabilities assessments of partner country law enforcement and security organizations.
The capability assessment results are used to develop country assistance plans for each partner
country. The country assistance plans should contain program objectives that provide the basis
for determining ATA training activities and equipment allocations. DS/T/ATA provides the
assistance, which it does primarily through the use of contracted security companies.4 DS/T/ATA
is also required to evaluate the effectiveness of the assistance and assess whether a partner
country’s anti-terror capabilities developed under the ATA program are sustainable.

ATA Program Funding
        From FYs 2002 through 2010, the U.S. Government allocated approximately $1.4 billion
to the ATA program (see Figure 2). Of the $1.4 billion, approximately $875 million was
dedicated to assistance programs in the 22 North Africa, Middle East, Central Asia, and South
Asia countries identified in Figure 1. In FY 2011, the ATA program’s budget request was
$205 million, with approximately $125 million designated for the 22 North Africa, Middle East,
Central Asia, and South Asia countries.




2
  1 FAM 022.5a, “Office of the Secretary of State (S)–Coordinator for Counterterrorism (S/CT).”

3
  1 FAM 262.4-1, “Principal Deputy Assistant Secretary for Diplomatic Security and Director of the Diplomatic

Security Service (DS/DSS)–Office of Antiterrorism Assistance (DS/T/ATA).” 

4
  These contracted security companies are DECO Security Services, TAC Technologies;, US Investigations Services

Inc., Orion Management LLC, Commonwealth Trading Partners Inc., and the U.S. Training Center.


                                                  4
                                             UNCLASSIFIED
                                      UNCLASSIFIED


Figure 2. Antiterrorism Assistance Program Funding, FYs 2002-2010 (Amounts in millions
of U.S. dollars)
                                             Funding to North Africa, Middle East,
        Fiscal Year         Total Funding           Central Asia, South Asia
            2010                      $197.7                                 $128.2
            2009                       155.0                                  102.4
            2008                       123.3                                   76.1
            2007                       175.1                                  109.0
            2006                       136.0                                   72.9
            2005                       175.5                                  100.5
            2004                       143.2                                   97.0
            2003                       111.3                                   88.7
            2002                       152.0                                   98.6
     FYs 2002-2010 Total            $1,369.1                                 $873.3
Source: OIG analysis of DS data.


                                   Evaluation Objectives
      The primary objectives of this program evaluation were (1) to determine the degree to
which ATA programs had achieved their intended outcomes and (2) to assess whether
DS/T/ATA provided effective oversight of contracts and U.S. Government-provided equipment.

                                    Evaluation Results

Finding A. ATA Program Training Was Provided, but Effectiveness Was Not
Measured
        Since 1983, DS/T/ATA has provided ATA program training to participants from North
Africa, the Middle East, Central Asia, and South Asia. However, DS/T/ATA could not determine
the program’s effectiveness because it had not developed specific, measurable, and outcome-
oriented program objectives or implemented a mechanism for program evaluation. In addition,
DS/T/ATA and CT were not consulting with DRL when selecting partner countries or when
determining the assistance to be provided to those countries because DS/T/ATA and CT officials
stated they were unaware of the requirement. As a result, the Department has no assurance that
the ATA program is achieving its intended statutory purposes or that the overall or individual
programs are successful. Further, DS/T/ATA has no basis for determining when partner
countries are capable of sustaining their own ATA program without U.S. support.

ATA Program Training
      From FYs 2002 through 2010, DS/T/ATA provided ATA program training to participants
from North Africa, the Middle East, Central Asia, and South Asia at a cost of approximately



                                           5
                                      UNCLASSIFIED
                                              UNCLASSIFIED



$426 million.5 The training included subjects such as fraudulent document recognition, very
important person protection, and critical incident management (the complete list of courses is
provided in Appendix B). In FY 2009, the ATA program expended approximately $62 million to
train 2,700 participants from North Africa, the Middle East, Central Asia, and South Asia. The
average training course lasted 13 days and was attended by 21 students, which equates to
approximately $23,000 per student per class, or $1,800 per student per day of training.6

Program Effectiveness Measures
       Although ATA program training was conducted, DS/T/ATA could not determine the
program’s effectiveness because it had not developed specific, measurable, and outcome-
oriented objectives or a system for program evaluation. According to a memorandum of
agreement between DS and CT, the planning process for establishing ATA program priorities
should include objectives that are specific, measurable and have a given timeframe. The
memorandum also states that once training is completed, DS/T/ATA is responsible for
evaluating training effectiveness, outcomes, and progress toward training program objectives and
sustainability.

        The Performance Management Handbook,7 the Department’s guidance for strategic and
performance planning, states that each bureau, mission, office, program, or project should set
clear results-oriented performance goals, also called long-term or end outcomes, which reflect
what they are trying to achieve. Performance goals should be declarative and should be specific
statements about what is to be accomplished and when it will be accomplished. The Handbook
also states that bureaus, missions, offices, programs, and projects should establish medium- and
short-term outcomes, or performance objectives, that demonstrate progress toward the end
outcome. Performance objectives should focus on achieving specific outcomes rather than
actions that merely establish programs. Examples of performance objectives include changes in
behavior (medium-term outcome) and changes in attitudes, knowledge, skills, and abilities
(short-term outcomes) that are attributable to the actions taken.

        The Handbook also states that bureaus, missions, offices, programs, and projects need to
establish effective measures, or performance indicators, to monitor progress toward achieving a
desired outcome. Performance indicators are specific qualitative or quantitative information that
       clearly, materially, and objectively shows progress toward achieving the intended
        performance goals and objectives;
       unambiguously identifies what is measured and how it is measured, is uni-dimensional,
        and is precisely defined;

5
  This amount varies from the total allocation of $873.3 million stated in Figure 2 because the “approximately

$426 million” does not include the cost of equipment or equipment-related overhead and does not include any

unobligated funds. 

6
  Cost breakouts do not include costs for equipment or for Department of State employees who provide ATA

program support. 

7
  See http://diplopedia.state.gov/index.php?title=Performance_Management_Handbook, accessed on March 14, 

2012.


                                                   6
                                              UNCLASSIFIED
                                            UNCLASSIFIED



       ensures that progress toward a given result is sufficiently captured; 

       compares actual results to specific, measurable targeted results (performance targets); and

       is useful for key budget, planning, and policy decisions. 


        OIG reviewed the strategic and performance goals for 22 ATA partner countries in North
Africa, the Middle East, Central Asia, and South Asia, as defined in the respective 2009, 2010,
and 2011 Country Assistance Plans.8 Country Assistance Plans are annual documents that
provide background on the need for ATA training with the strategic goals provided by CT and
performance goals provided by DS/T/ATA. OIG found that for 20 of the 22 countries, CT and
DS/T/ATA did not develop specific or measurable strategic or performance objectives in the
Country Assistance Plans. Although CT provided general strategic objectives and DS/T/ATA
provided general performance objectives, the objectives were often too broad to provide
meaningful criteria for selecting courses for the partner countries or to act as measures for
program success. For eight of the 22 countries, CT provided broad strategic objectives that were
vague or included an inordinate number of goals. For example, the strategic objectives for
Lebanon directed the ATA program to help modernize and professionalize security forces
“through basic and advanced training and equipment and operation upgrades.”9 The strategic
objectives for India directed the program to emphasize critical incident response; post-incident
investigation; human rights; border security; international threat finance; extradition and
prosecution; and the protection of critical infrastructure, including port, rail, and airport
security.10

        Further, the performance objectives for 14 of the 22 partner countries would support
nearly any training program.11 For example, a performance objective for both Bahrain and
Morocco is to enhance the country’s “capability in investigating, and responding to terrorism.”12
The two program objectives for Nepal are “to enhance the capabilities of Nepalese police to
utilize ATA training” and to “improve capabilities of the Nepalese police to counter and respond
to terrorism.”13 Similarly, other country programs, including Bangladesh, India, Kazakhstan,
Kyrgyz Republic, Tajikistan, Turkey, and Turkmenistan, listed the enhancement of police
leadership and management capabilities as a performance objective. Any of the training courses
provided by the ATA program would be within the purview of these objectives.

         In addition, nearly all of the performance indicators and targets used to define success or
failure of a country program were ambiguous, were not measurable, or lacked meaning. For
example, one performance indicator for measuring the success of the increasing protection
capabilities for Bangladeshi leaders was “regular updates from U.S. Embassy, ATA program
visits, and feedback from Bangladesh’s law enforcement community on enhanced institutional
management and procedures developed through ATA training to protect national leaders.” In
8
  OIG reviewed 22 Country Assistance Plans for FYs 2009 and 2010 and 19 Country Assistance Plans for FY 2011. 

9
  ATA Country Assistance Plan – Lebanon.

10
   ATA Country Assistance Plan – India. 

11
   Six of these countries also had broad strategic objectives.

12
   ATA Country Assistance Plan – Bahrain. 

13
   ATA Country Assistance Plan – Nepal.


                                                 7
                                            UNCLASSIFIED
                                              UNCLASSIFIED



addition, some other performance indicators were simply descriptions of actions ATA would
take. For example, one indicator used to measure progress in Kazakhstan was to “train
management elements of the Kazakh police in the following areas in order to improve their
skills: combating domestic and international terrorism, senior crisis managements, tactical
commanders, [and] major case management.”14 A similar indicator was provided for the
Tajikistan program, which stated, “train management elements of the Tajik police in the
following areas in order to improve their skills: counterterrorism components of academy
development, critical incident managemetnt, mass casualty incident management, and mentoring
assistance."15 For each of these three indicators, it was not clear what would be measured or how
it would be measured. Moreover, the indicators were not clearly, materially, or objectively
linked to an intended performance outcome, which would make it difficult to evaluate program
effectiveness after training had been completed.

        Finally, DS/T/ATA did not have an evaluation system to determine whether specific
training was effective in enhancing partner countries’ antiterrorism skills. Such an effort would
systematically and routinely collect, analyze, and report data on the performance indicators it
identified to track progress toward the stated performance goals and objectives for the country
program. Although DS/T/ATA recorded some output statistics, such as the number and types of
classes held and the number of students trained, there was no followup on the outcome, such as
how the students performed, where the students were placed in their respective organizations, or
how many students had become instructors. Instead, DS/T/ATA officials stated that they
considered their needs assessment process to be an acceptable method for measuring ATA
program training success. Specifically, DS/T/ATA officials stated that by comparing a country’s
needs assessment before ATA program training with a subsequent needs assessment, a country’s
progress could be measured effectively. However, while the needs assessments might track a
country’s progress in counterterrorism capabilities over time, the assessments did not
systematically collect and analyze data on the performance indicators DS/T/ATA identified to
track progress toward the stated country performance goals and objectives, nor did they measure
the specific effect of the ATA program on that progress (or lack of progress).

        OIG noted that DS/T/ATA did collect some information that could provide indications of
progress toward achieving programmatic goals. For example, OIG compared pre-training and
post-training test scores as a potential measure of ATA program training success. Although OIG
did not use a statistically significant sample and could not measure overall training success, the
test scores for participants from Afghanistan, Algeria, Bangladesh, India, Iraq, Pakistan, and
Turkey indicated that the training had increased the participants’ knowledge. Specifically,
students scored an average of 49 percent on course knowledge tests before training, which
improved to 79 percent after the training (an increase of 30 percent). The use of an indicator such
as an increase in pre-course and post-course test scores could provide a better indication of
training success.



14
     ATA 2011 Country Assistance Plan – Kazakhstan
15
     ATA 2011 Country Assistance Plan – Tajikistan.

                                                   8
                                              UNCLASSIFIED
                                             UNCLASSIFIED



         Examinations of ATA program test scores could also identify potential problems with the
actual training. For example, OIG examined the pre-training and post-training test scores for
seven of the eight courses taught in Iraq from 2009 to 2011. As shown in Figure 3, students in
each course improved their scores, on average, by approximately 9 to 48 percentage points.
However, the post-training test scores for four courses–Crisis Response Team, Tactical
Commanders, Very Important Person Protection, and Vital Infrastructure Security–indicated that
the students did not understand from one-quarter to more than one-half of the material presented
in the curriculum. Such results could indicate potential problems with a course and could guide
DS/T/ATA to where further evaluation of training effectiveness is needed. For example, further
evaluation could indicate that the students did not have the prerequisite skills, knowledge, and
abilities needed to pass the courses; course materials were not properly developed; or the training
was not delivered effectively.

Figure 3: ATA Iraq Training Courses, Number of Police Trained, and Results of Pre-
Course and Post-Course Tests, 2009 to 2011
                                              Number       Average Test Scores (percent)
                                                                                                 Change
              ATA Course                      of Police
                                                           Pre-training     Post-training       (percent)
                                              Trained
Armored Vehicle Driver Training                  24         Not tested        Not tested           --
Crisis Response Team                             24           38.7              70.7             32.0
Explosives Incident Countermeasures              11           57.3              85.9             28.6
Instructor Development                            17          31.8              80.0             48.2
Post Blast Investigations                         20          59.3              84.8             25.5
Tactical Commanders                               24          49.0              57.9              8.9
Very Important Person Protection                 261          44.8              74.3             29.5 a
Vital Infrastructure Security                     24          24.1              45.9             21.8
a
 A total of 11 Very Important Person Protection classes were taught from 2009 to 2011. However, data were

available for only six of the classes. 

Source: OIG analysis of DS/T/ATA data.


        Other outcome-measures that could be useful to assess effectiveness of ATA programs
include student placement into police units, how long students stay in those positions or police
units (retention), and whether and how frequently students use the skills taught in the ATA
training. DS/T/ATA collects some information on placement, retention, and skills use; however,
these data are not systematically collected or analyzed. For example, in a March 2011
capabilities assessment for Iraqi police, DS/T/ATA noted that less than one-half of the
approximately 140 members of the Iraqi Emergency Response Brigade who received ATA
training had remained in the unit. However, DS/T/ATA reported no information on how many
Kurdish police who received ATA training had remained in their units. In addition, program
officials in Pakistan stated that the program only informally monitored students’ after-graduation
retention and monitored whether students had used the training they received; however, OIG
found no documents confirming such monitoring. The officials also stated that they planned to
implement a tracking system to monitor students after graduation, but they gave no timeline on
the program’s implementation. OIG’s analysis of ATA country assistance plans for FY 2011
showed that DS/T/ATA has established retention-based performance indicators for four


                                                  9
                                             UNCLASSIFIED
                                        UNCLASSIFIED



countries: Kazakhstan, Morocco, Tajikistan, and Turkmenistan. However, these country
assistance plans do not state how DS/T/ATA will collect and analyze retention data.

Coordination of Human Rights Issues

       Although DS/T/ATA and CT officials vetted individual students with DRL and included
human rights instruction in course curricula, DS/T/ATA and CT were not coordinating with DRL
before determining the countries that would receive training or the content of the assistance to be
provided under the ATA program. The Act of 1983 requires that DRL be consulted when
determining which foreign countries to provide assistance to and the nature of that assistance.16
DS/T/ATA and CT officials stated that they were unaware of that requirement.

         DRL’s involvement in the ATA program was limited to the vetting of individual ATA
students to ensure compliance with the Leahy Amendment to the Foreign Operations
Appropriations Act. The Leahy Amendment forbids the funding of security forces of a foreign
country if the Department has credible evidence that these forces have committed gross
violations of human rights.17 However, ATA programs operate in complicated environments
with regard to human rights, and the programs may require oversight more rigorous than the
Department’s Leahy vetting, which focuses only on known individual perpetrators. OIG
reviewed the Department’s 2010 Country Reports on Human Rights Practices, issued by DRL,
for all countries in North Africa, the Middle East, Central Asia, and South Asia and found that
police forces of several partner countries were listed as human rights violators, including forces
in Afghanistan, Bangladesh, Jordan, Kazakhstan, and the Kyrgyz Republic. In each case,
individual students may not be known human rights abusers, but actions of the group may
warrant closer examination by DRL.

         DRL officials stated that individuals could pass Leahy vetting and receive training, even
if their police force is a known human rights violator. Although DRL has periodically vetted the
police forces of partner countries on an ad hoc basis, there was no coordinated effort between
DS/T/ATA, CT, and DRL to vet all of the police forces so that flagrant violators of human rights
could be excluded from training. For example, in 2005 DRL contacted DS/T/ATA to bar the
Bangladesh Rapid Action Battalion from receiving ATA training and equipment because of
reports that the group had carried out extrajudicial killings. Without a regular coordinated effort,
however, DRL might not be aware of some of the ATA training planned or provided. To prevent
the possible distribution of assistance to known human rights abusers, CT and DS/T/ATA need
to establish a formal process for including DRL when choosing foreign countries to provide
assistance to and when determining the content of the assistance. DS/T/ATA and CT should also
ensure that all Department personnel responsible for the ATA program are aware that DRL
should be consulted.




16
     22 U.S.C. § 2349aa-2(b).
17
     Pub. L. No. 109-102 § 551.

                                             10
                                        UNCLASSIFIED
                                        UNCLASSIFIED



Assurance of Compliance and Success

       Without specific, measurable, and outcome-oriented objectives and an evaluation system,
the Department has no assurance that the ATA program is achieving its intended statutory
purpose or that the overall or individual programs are successful. In addition, for partner
countries where sustainability is a stated ATA performance goal or objective, DS/T/ATA lacks a
comprehensive system for determining when those countries are capable of sustaining their own
ATA programs without U.S. support.

        As stated in the Act of 1983, one purpose of the ATA program is to enhance the
antiterrorism skills of participants. The lack of an evaluation system limits the ability to
determine whether the ATA program has met that purpose. Under the current system, policy
makers do not have the information available to determine the success of the overall ATA
program, the country-specific programs, or the individual training courses. It is imperative for
the Department to be able to identify the country-specific programs and training courses that
provide the greatest return on investment, as that information can be used to guide funding
decisions and contents of training curricula.

         The second purpose of the ATA program is to strengthen the bilateral ties between the
United States and the partner countries.18 During the evaluation, OIG interviewed several
regional security officers (RSO) who stated that ATA training had strengthened bilateral ties
between United States and partner countries. They further stated that the ATA program had been
a factor in improved relations and coordination between RSOs at U.S. embassies and local law
enforcement entities during recent terror attacks in several countries. For example, RSOs in
Yemen stated that during the 2008 attacks on Embassy Sana'a, when embassy guards fled, the
local Yemeni police force arrived to guard the embassy. The RSO in New Delhi, India, said that
after the 2008 Mumbai terror attacks in which six Americans were killed, relations with the
Mumbai police facilitated examination of the crime scene by the Federal Bureau of Investigation.
The RSO in Algiers stated that the Algerian police had provided information on a dozen terrorist
attacks and that the information had helped him make the embassy more secure. While RSOs
emphasized that they believed the ATA program added significantly to closer cooperation
between their respective offices and local law enforcement entities, ATA did not keep
quantitative data to support these statements. RSOs stated that they were not certain that
examples of cooperation resulted directly from the ATA program or were attributable to other
factors.

        The third purpose of the ATA program is to increase respect for human rights in the
partner countries. The Act of 1983 specifically states that the ATA program should coordinate
with DRL before determining whether a country should be provided ATA training. Not
coordinating with DRL before making such a determination increases the risk that assistance
may be provided to law enforcement groups that have committed human rights abuses,
potentially groups that have had ATA training and have ATA equipment.


18
     22 U.S.C. § 2349aa-1.

                                             11
                                        UNCLASSIFIED
                                          UNCLASSIFIED



        The Department lacks a comprehensive system for determining when partner countries
are capable of sustaining their own ATA program without U.S. support. DS/T/ATA is unable to
determine whether a partner country’s anti-terror capabilities are sustainable or whether a partner
country has the ability to take responsibility for and continue the training on its own. Although
ATA routinely conducts train-the-trainer courses to promote sustainability, there are no training
benchmarks and no evaluation processes to ensure training objectives are achieved. Without
measurements of success or failure for ATA program training or for the establishment of a train-
the-trainer program, there is no basis for determining whether a country is qualified to conduct
its program without U.S. support. Since its inception in 1983, the ATA program has yet to have a
country “graduate” from its training program.

Management Actions Taken in Response to Government Accountability Office Report
        OIG’s findings contained in this report are similar to those contained in a 2008
Government Accountability Office (GAO) review of the ATA program.19 In its report, GAO
stated that DS/T/ATA “does not assess program outcomes and, as a result, cannot determine the
effectiveness of program assistance.” GAO recommended that the Department “ensure that needs
assessments and program reviews are both useful and linked to ATA resource decisions and
development of country specific assistance plans.” GAO also recommended that the Department
“establish clearer measures of sustainability, and refocus the process for assessing the
sustainability of partner nations’ counterterrorism capabilities, including specific outcomes for
the ATA program.”

        In its response to GAO’s recommendations, DS/T/ATA officials stated that efforts were
underway to “rewrite the standard operating procedures for the ATA needs assessment and
program review process, as a well as accurately define metrics of success.” DS/T/ATA officials
further stated that they would include objective capability ratings in initial country assessments
and subsequent country reports. GAO subsequently closed the recommendations based on a May
2010 memorandum of agreement between DS and CT requiring compliance with the GAO
recommendations.

        Since the 2008 GAO report was issued, DS/T/ATA has added a CT representative to the
needs assessment teams and has begun to examine a country’s ability to sustain ATA training as
part of the assessment. Although OIG agrees with these changes and considers the needs
assessments a valid tool for determining the types and quantity of ATA training needed, the
assessments are not a substitute for an evaluation process. An evaluation measures progress
toward achieving desired outcomes, usually the strategic goals or program objectives. To
evaluate a program, one must first have clearly defined and measurable desired outcomes of the
program, the indicators or benchmarks that clearly link to the desired outcomes, and baseline
data and annual performance targets for each indicator to track progress. These items should be
established during the needs assessment stage and should also include statements of how, when,
and by whom data for each indicator would be collected. Therefore, OIG is making
recommendations to address these issues in this report.
19
  Combating Terrorism: State Department’s Antiterrorism Program Needs Improved Guidance and More
Systematic Assessment of Outcome (GAO-08-336, Feb. 2008).

                                               12
                                          UNCLASSIFIED
                                 UNCLASSIFIED




Recommendation 1. OIG recommends that the Bureau of Diplomatic Security, in
coordination with the Bureau of Counterterrorism, establish a monitoring and evaluation
system that includes clearly defined and measurable outcome-oriented strategic goals and
program objectives; measurable performance indicators that clearly link to strategic goals
and program objectives; baseline data and annual performance targets for each indicator;
and descriptions of how, when, and by whom performance data will be collected,
analyzed, and reported.

CT Response: CT concurred, stating that it has begun working with DS and a private
consulting firm to improve the ATA program’s monitoring and evaluation system. CT
further stated that the results-based management system will build on the existing
assessment process and includes all of the elements identified in the audit report. CT
stated that sustainability it is not a strategic or programmatic goal in all ATA partner
countries.

DS Response: DS partially concurred, stating that its programmatic objectives are
already measurable and that it uses the Performance Measures of Effectiveness System as
the primary mechanism for program evaluation. DS further stated that subject matter
experts use detailed checklists and a Likert scale to make capability assessments on initial
and subsequent visits to the participating nations. DS also stated that it is transitioning to
an outcome-based standard to measure success in achieving programmatic standards,
which it expects will be more indicative of long-term impact of the ATA program. DS
added that OIG should recommend that CT provide strategic objectives that are as
specific as possible.

DS also stated that a number of points in the finding warranted clarification. First, DS
stated that it provided OIG with ATA program strategic and programmatic objectives for
FY 2011 (FY 2012 objectives were not yet available) but that the draft report “implies”
that program objectives did not exist for 20 countries. DS also stated that timelines for
sustainability should apply only to those countries whose ATA programs were funded at
the developmental level (exceeding $5 million) and that only seven of the 62 funded
countries were in that category. The remaining programs are intermittent assistance-level
training not focused on sustainability.

OIG Reply: Based on DS’s statement that it is transitioning to outcome-based standards
and CT’s statement that it and DS are working to establish an improved results-based
management system that will include all of the elements identified in the report, OIG
considers the recommendation resolved. The recommendation can be closed when OIG
reviews and accepts confirmation from CT and DS showing that a monitoring and
evaluation system has been established.

OIG does not agree that the DS Performance Measures of Effectiveness System provides
a true indication of ATA program performance, as that system measures success by
comparing only the results of successive capabilities assessments. As stated in this

                                      13
                                 UNCLASSIFIED
                                UNCLASSIFIED



report, those capabilities (needs) assessments do not report on the performance indicators
DS/T/ATA identified to track progress toward achieving performance goals and
objectives, nor do they measure the specific effect of the ATA program on that progress
(or lack of progress). OIG also does not agree that the report implies that 20 countries
did not have program objectives. Specifically, OIG stated that DS/T/ATA had
performance objectives, but those objectives were too broad and did not provide
meaningful guidance to program managers when selecting courses for the partner
countries or to act as measures for program success.

Regarding sustainability, OIG was not aware that DS had established a $5 million
threshold to differentiate between developmental-level training, where partner country
sustainability is a primary goal, and assistance-level training, which is intermittent and
does not focus on partner country sustainability. However, it does not appear that DS
consistently applies that definition to its ongoing country programs. Upon reviewing the
FY 2011 Country Assistance Plans, OIG identified eight country programs that listed
sustainability as a performance goal or objective despite having funding levels well
below $5 million. These countries and their respective funding levels for FY 2011 were
Bahrain ($1.5 million), Kazakhstan ($500,000), Kyrgyz Republic ($500,000), Morocco
($800,000), Nepal ($700,000), Oman ($500,000), Turkmenistan ($250,000), and Yemen
($2.5 million).

OIG does not dispute that a sustainability goal may be limited to developmental
programs, but DS should consistently apply its definition of what constitutes a
developmental program. Therefore, OIG has modified Recommendation 1 to delete
reference to partner countries’ sustainability timelines and has added a new
recommendation (No. 2) pertaining to development and consistent application of a
definition for which ATA programs should include sustainability as a performance goal.
DS is requested to respond to the new recommendation, which is unresolved.

Recommendation 2. OIG recommends that the Bureau of Diplomatic Security, in
coordination with the Bureau of Counterterrorism, develop a definition for what
constitutes a developmental ATA program, consistently apply that definition to country
programs, and ensure that partner country sustainability timelines are established for
developmental ATA programs.

Recommendation 3. OIG recommends that the Bureau of Diplomatic Security and the
Bureau of Counterterrorism, in coordination with the Bureau of Democracy, Human
Rights and Labor (DRL), establish and implement a process that ensures effective
consultation with DRL on the designation of foreign countries that are eligible for
assistance through the Antiterrorism Assistance program as well as the training and
equipment each designated country is to receive.

DS, CT, and DRL Joint Response: DS, CT, and DRL concurred, stating that they are
taking steps to implement the recommendation. Specifically, according to the responses,
CT will obtain DRL input and clearance on its annual review of ATA partner nations, DS

                                     14
                                UNCLASSIFIED
                                              UNCLASSIFIED



           and CT will obtain DRL clearance on revisions to the Country Assistance Plans for
           countries identified as being of concern, and DS will obtain separate clearance for any
           courses added to a training program that were not approved in the Plans. Finally,
           DS/T/ATA will solicit DRL input into any revisions of the human rights module in all
           ATA courses.

           OIG Reply: OIG considers the recommendation resolved. The recommendation can be
           closed when OIG reviews and accepts confirmation from CT, DS, and DRL showing that
           they have established and implemented a consultative human rights process for selecting
           partner nations and their corresponding program elements.

Finding B. ATA Program Training Was Not Actively Monitored
        DS/T/ATA was not providing adequate oversight of contractor-provided ATA program
training. The Foreign Affairs Handbook20 requires that a contractor’s performance be actively
monitored and that prompt action be taken to correct performance problems. DS/T/ATA had not
appointed a COR or developed a process for ensuring that the contractor met contract
performance standards. The lack of oversight increases the risk that the Department could pay
for work that is not performed or work that is not in accordance with contract requirements.

Inadequate Contractor Oversight

         DS/T/ATA was not providing contract oversight as required by the Foreign Affairs
Handbook, which states that to ensure contract performance “most beneficial to the U.S.
Government, the U.S. Government has the responsibility to actively watch and follow the
contractor's performance and take prompt, affirmative action to correct problems.”21 However,
while observing contractor performance during training courses in Beirut (Lebanon), Dhaka
(Bangladesh), and Nasik (India), OIG determined that none of the training courses were being
monitored by a U.S. Government official with contract oversight responsibility. The RSOs for
each country stated that they try to attend either the first or the last day of training but that they
do not generally have time to observe the entire course. Locally employed staff from the regional
security office are assigned to help organize the training and, in that role, generally attend most
of the training sessions. However, the RSOs and locally employed staff are not responsible for
reviewing deliverables or reporting on contractor performance to ATA management. The ATA
contracting officer stated that he sometimes receives feedback from the RSOs concerning
contractor performance but generally only when the training goes very poorly. The contracting
officer further stated that he assumes the training went well if he receives no feedback stating
otherwise.




20
     14 FAH-2 H-511(a), “Post-Award Contract Administration–Administration.”
21
     Ibid.

                                                   15
                                              UNCLASSIFIED
                                           UNCLASSIFIED



Contractor Oversight Process

        DS/T/ATA had not appointed a COR or developed a process for ensuring that the
contractor met contract performance standards. The Foreign Affairs Handbook states that a COR
should be appointed as the technical representative of the contracting officer, “relaying any
information affecting contractual commitments and requirements.”22 Generally, the COR
performs various oversight functions, such as conducting on-site visits, reviewing deliverables,
and ensuring the quality of contractor performance. However, once the individual ATA program
contracts were awarded, the training courses were conducted without a COR to perform such
duties.

        The DS/T/ATA contracting officer stated that he anticipated creating a COR position but
that the COR would be located in Washington, DC, and not at the locations where training is
taking place. The appointment of a primary COR in Washington would benefit the ATA
program, as the COR could synchronize the oversight process across the Department. However,
it would be impractical for the COR to travel to all of the ATA training sites. Therefore, the
primary COR should establish a mechanism for using in-country personnel to oversee the
training and provide feedback to the COR. For example, the COR could appoint RSO
representatives from each country as assistant CORs. These representatives, who often already
observe the training, could review contract deliverables and report to the contracting officer and
primary COR on the quality of the contractor’s performance.

Increased Risk of Contract Underperformance

        Without a contract oversight mechanism, the Department increases the risk that it could
pay for work that has not been performed or for work that is not in accordance with contract
requirements. A contractor could potentially deliver fewer hours of training than required or
deliver insufficient or inappropriate training. Although obvious poor performance can be noted
by an RSO representative under the current system, more subtle or technical underperformance
cannot be noted. Furthermore, without a formal contract oversight mechanism, there is no
assurance that the Department will receive contract deliverables, such as tests and course
critiques, that can be used to measure the effectiveness of training and improve course content.
In that regard, OIG determined, based on its analyses of contract deliverables for 92 training
courses held in Algeria, Bangladesh, India, Iraq, Lebanon, and Pakistan between FYs 2009 and
2011, that the contractors did not deliver 14 sets of student tests, 14 sets of course critiques, and
10 after-action reports.

DS/T/ATA Actions Taken

       In February 2012, the Contracting Officer appointed a COR and a Government Technical
Monitor to administer three new Global Antiterrorism Training Assistance contracts. These two
representatives are based in the Washington, DC, region. Although DS/T/ATA has established

22
 14 FAH-2 H-513 (a), “Post-Award Contract Administration–The Contracting Officer’s Representative’s (COR)
Role in Contract Administration.”

                                                16
                                           UNCLASSIFIED
                                        UNCLASSIFIED



these positions, DS/T/ATA officials stated that it is still cost prohibitive and impractical to have
one of these appointed representatives attend all overseas classes. Nonetheless, the appointment
of the COR and technical monitor in Washington will benefit the ATA program, as both
individuals can synchronize the oversight process across the Department. OIG agrees that it
would be impractical for the COR or the GTM to travel to all of the ATA training sites.
Therefore, the DS/T/ATA should establish a mechanism for using in-country personnel to
oversee the training and provide feedback to the COR. For example, the COR could appoint
RSO representatives from each country as assistant CORs. These representatives, who often
already observe the training, could review contract deliverables and report to the contracting
officer and COR on the quality of the contractor’s performance.

       Recommendation 4. OIG recommends that the Bureau of Diplomatic Security appoint a
       contracting officer’s representative to oversee Antiterrorism Assistance training contracts
       and implement a standardized reporting process for in-country oversight of contracts for
       Antiterrorism Assistance program training in partner countries.

       DS Response: DS partially concurred, stating that it has a COR who addresses all issues
       related to contracts, including in-country training services in partner countries, and that
       therefore the portion of the recommendation requesting appointment of a COR should be
       omitted. Regarding the in-country oversight of contracts, DS stated that it was cost
       prohibitive to attend every training event but that in those instances in which a DS
       representative will not attend, the ATA program manager will request that the Regional
       Security Office confirm in writing that the training course and deliverables met the
       contract and task order requirements.

       OIG Reply: OIG considers the recommendation resolved, pending further action, based
       on the appointments of the COR and the GTM and on DS’s statement that DS will work
       with RSOs to oversee in-country training. The recommendation can be closed once OIG
       reviews and accepts confirmation showing that DS has formalized the requirement that
       the Regional Security Office should provide written confirmation of contractor
       compliance with task order and contract requirements.

Finding C. The Antiterrorism Assistance Program Was Conducting End-Use
Monitoring, but Equipment Records Were Not Accurate and Specific
Equipment Needs Were Not Evaluated
        DS/T/ATA was conducting end-use monitoring inspections as required by the Arms
Export Control Act to ensure that U.S.-provided equipment was being used for its intended
purpose. However, DS/T/ATA was not maintaining accurate records of the ATA program
equipment. In addition, DS/T/ATA had purchased equipment that exceeded the needs of partner
countries and was largely unused. This occurred because DS/T/ATA had not evaluated the need
and potential use of equipment for the ATA partner countries. As a result, the Department could
be allocating funds and equipment that might be put to better use in other countries.



                                             17
                                        UNCLASSIFIED
                                                   UNCLASSIFIED



End-Use Monitoring
        DS/T/ATA was performing end-use monitoring inspections as required to ensure that the
partner nations had control of ATA-provided equipment included on the United States Munitions
List. The Arms Export Control Act23 requires that Government agencies maintain control over
any imported or transferred defense articles for foreign assistance that are included on the United
States Munitions List. The act also requires that the Department establish an end-use monitoring
program that provides reasonable assurance that articles and services are being used for the
purposes for which they are provided.24 Because ATA-provided equipment includes a number of
items on the United States Munitions List such as rifles and handguns,25 the program is required
to perform end-use monitoring of those items.

Inaccurate Inventory Records
       OIG analyzed end-use inspection reports for North Africa, Middle East, South Asia, and
Central Asia partner countries and compared serial numbers for weapons with serial numbers on
DS/T/ATA’s End Use Monitor database of weapons transfers. As of April 2011, 3,152 weapons
had been provided to law enforcement agencies in Afghanistan, Bangladesh, Egypt, Jordan,
Lebanon, Nepal, Pakistan, Tajikistan, and Yemen. Of those 3,152 weapons, only one was
unaccounted for. However, end-use monitoring reports included approximately 800 weapons that
were not in the database, mostly in Afghanistan. Additionally, several weapons’ serial numbers
and make did not match what was recorded in the master database. The results of OIG’s analysis
of weapons end-use inspection reports are shown in Figure 4.

Figure 4. Locations of Antiterrorism Assistance Program Weapons
                        Weapons                           Weapons Found
                        Provided        Unaccounted        Not in ATA          Date of Last
     Country            by ATA          for Weapons         Database             Inspection
Afghanistan                    637                    0              801   November 2011
Bangladesh                     270                    0                0   March 2011*
Egypt                           80                    -                -   Not yet conducted
Jordan                       1,059                    0                0   August 2010
Lebanon                        247                    0                0   May 2011*
Nepal                          127                    0                0   September 2009
Pakistan                       549                    0               13   April 2010
Tajikistan                      91                    0                0   September 2009
Yemen                           92                    1                0   July 2009
Totals                       3,152                    1              814
*OIG-conducted inspection. 

Source: OIG and OIG analysis of DS/T/ATA data. 



        In Bangladesh and Lebanon, OIG conducted a physical inspection and confirmed that
local law enforcement officials had all 270 weapons in Bangladesh and all 247 weapons in
Lebanon that had been provided under the ATA program. OIG verified the serial numbers on the
handguns and automatic weapons and found no discrepancies in either of these two inventories.
23
   22 U.S.C. § 2778.
24
   22 U.S.C. § 2785(a)(2).
25
   22 CFR pt. 121.1.

                                                        18
                                                   UNCLASSIFIED
                                         UNCLASSIFIED



Based on its inventory of explosives detection equipment provided to bomb disposal units in
Bangladesh, OIG determined that the units had all such serialized equipment received within the
past 2 years from the ATA program.

Excess Equipment Purchased

        In Bangladesh and Pakistan, equipment went largely unused or was inappropriate for the
ATA training mission in that country. When OIG inventoried explosives detection equipment
valued at more than $100,000, the bomb disposal unit took more than an hour to locate the
equipment. Bangladesh police officials stated that the equipment had never been used because
they already had other bomb detection equipment. Bangladesh law enforcement agencies had
also received Glock-17 handguns through the ATA program; however, some Glocks were not
being used. Law enforcement officers stated that they preferred their agency-issued Chinese type
77 pistols because they had trained and qualified with them for years. They also stated that
obtaining ammunition for the Chinese type 77 pistols was easier, since the ammunition was
readily available in-country while ammunition for the Glock-17s had to be ordered through
ATA. In Pakistan, certain weaponry went unused because law enforcement officials had not
ordered ammunition for the weapons.

       In addition, according to the Global Financial Management System, DS/T/ATA
purchased approximately $2.9 million worth of equipment between May and September 2010 for
the ATA Iraq program. The purchased equipment was then stored in a Northern Virginia
warehouse until mid-December 2011, when DS/T/ATA shipped a portion of the equipment,
valued at approximately $1.35 million, to Iraq. However, as of December 31, 2011, 21 months
after DS/T/ATA began these equipment purchases, approximately 6,700 pieces of equipment
purchased for the Iraq program, valued at approximately $1.5 million, remained in the
warehouse.

        When equipment purchased for ATA programs is stored and not immediately transferred
to the host nations, ATA graduates will not have the tools to execute the jobs for which they
were trained. Failure to provide the equipment upon the completion of the course could affect the
students’ ability to perform their duties and to retain their newly obtained skills. Thus this lack of
equipment potentially affects the effectiveness of the program. Further, retaining high-value
equipment for more indefinite periods is inefficient and diverts funds that could be used for other
purposes.

Potential Equipment Use Not Evaluated

        While DS/T/ATA’s end-use inspections ensure compliance with the Arms Export Control
Act, the inspections do not include a determination of whether the equipment is being used,
whether the equipment is appropriate for the needs of the partner country, or whether there is a
sufficient amount of equipment. Additionally, in countries with no weaponry and no inspections,
there is no followup on the disposition of equipment that is not weaponry, such as explosives
detection equipment. Therefore, the Department could be allocating funds and equipment that
might be put to better use in other countries. To prevent unnecessary expenditures and to ensure

                                              19
                                         UNCLASSIFIED
                                       UNCLASSIFIED



the ATA-provided equipment is used, DS/T/ATA should establish a process to determine
whether equipment will be used and whether it is compatible with and at an appropriate level for
the partner country. This process should occur before the equipment is transferred to the partner
country.

       Recommendation 5. OIG recommends that the Bureau of Diplomatic Security
       periodically validate its End Use Monitor database to ensure that the database includes
       records of all weapon transfers.

       DS Response: DS did not concur, stating that it maintains, for weapons accountability, a
       weapons database and the End Use Monitor database. DS further stated that the two
       databases do not reconcile because the End User Monitor Database includes both
       DS/T/ATA-purchased weapons, as well as weapons purchased by other agencies and
       provided to partner countries through the ATA program. The master database contains
       only those weapons purchased by DS/T/ATA.

       OIG Reply: The recommendation resulted from OIG’s finding that the end use
       monitoring reports, which derived from the End Use Monitor database, did not contain
       information on approximately 800 weapons DS/T/ATA provided to partner countries.
       Records for all weapons provided to such countries should be contained in the End Use
       Monitor database regardless of whether DS purchased those weapons or received them
       from another U.S. Government agency. OIG considers this recommendation to be
       responsive to its findings. However, to avoid confusion, OIG has modified the original
       recommendation and the text of the report to include mentions of the End Use Monitor
       database. DS is requested to respond to this modified recommendation, which is
       unresolved.

       Recommendation 6. OIG recommends that the Bureau of Diplomatic Security establish
       a process, before equipment is provided to partner countries, to determine whether the
       equipment will be used and whether the equipment is compatible with and at an
       appropriate level for the partner country.

       DS Response and OIG Reply: DS concurred with the recommendation. Based on the
       response, OIG considers the recommendation resolved, pending further action. This
       recommendation can be closed when OIG reviews and accepts documentation showing
       that DS established the process for determining equipment compatibility and level of
       appropriateness.

       Recommendation 7. OIG recommends that the Bureau of Diplomatic Security review
       the types of the remaining equipment for the Iraq program stored in the Northern Virginia
       warehouse, evaluate the equipment’s utility, and determine an appropriate disposition.
       (Action: DS.)

       DS Response and OIG Reply: DS concurred with the recommendation. Based on the
       response, OIG considers the recommendations resolved, pending further action. The

                                            20
                                       UNCLASSIFIED
                             UNCLASSIFIED



recommendation can be closed when OIG reviews and accepts confirmation showing that
DS completed its disposition of Iraqi program equipment warehoused in Northern
Virginia.




                                  21
                             UNCLASSIFIED
                                       UNCLASSIFIED



                                 List of Recommendations 

Recommendation 1. OIG recommends that the Bureau of Diplomatic Security, in coordination
with the Bureau of Counterterrorism, establish a monitoring and evaluation system that includes
clearly defined and measurable outcome-oriented strategic goals and program objectives;
measurable performance indicators that clearly link to strategic goals and program objectives;
baseline data and annual performance targets for each indicator; and descriptions of how, when,
and by whom performance data will be collected, analyzed, and reported. (Action: DS in
coordination with CT.)

Recommendation 2. OIG recommends that the Bureau of Diplomatic Security, in coordination
with the Bureau of Counterterrorism, develop a definition for what constitutes a developmental
ATA program, consistently apply that definition to country programs, and ensure that partner
country sustainability timelines are established for developmental ATA programs. (Action: DS
in coordination with CT.)

Recommendation 3. OIG recommends that the Bureau of Diplomatic Security and the Bureau
of Counterterrorism, in coordination with the Bureau of Democracy, Human Rights and Labor
(DRL), establish and implement a process that ensures effective consultation with DRL on the
designation of foreign countries that are eligible for assistance through the Antiterrorism
Assistance program as well as the training and equipment each designated country is to receive.
(Action: DS and CT in coordination with DRL.)

Recommendation 4. OIG recommends that the Bureau of Diplomatic Security implement a
standardized reporting process for in-country oversight of contracts for Antiterrorism Assistance
program training in partner countries. (Action: DS)

Recommendation 5. OIG recommends that the Bureau of Diplomatic Security periodically
validate its End Use Monitor database to ensure that the database includes records of all weapon
transfers. (Action: DS.)

Recommendation 6. OIG recommends that the Bureau of Diplomatic Security establish a
process, before equipment is provided to partner countries, to determine whether the equipment
will be used and whether the equipment is compatible with and at an appropriate level for the
partner country. (Action: DS.)

Recommendation 7. OIG recommends that the Bureau of Diplomatic Security review the types
of the remaining equipment for the Iraq program stored in the Northern Virginia warehouse,
evaluate the equipment’s utility, and determine an appropriate disposition. (Action: DS.)




                                            22
                                       UNCLASSIFIED
                                       UNCLASSIFIED



                                                                                   Appendix A
                                 Scope and Methodology
       The Office of Inspector General (OIG) initiated this work under the authority of the
Inspector General Act of 1978, as amended, to evaluate Antiterrorism Assistance (ATA)
programs. The primary objectives of this evaluation were (1) to determine the degree to which
ATA programs had achieved their intended outcomes and (2) to assess whether the Bureau of
Diplomatic Security’s Office of Antiterrorism Assistance (DS/T/ATA) provided effective
oversight of contracts and U.S. Government-provided equipment.

        To determine the degree to which ATA programs had achieved their intended outcomes,
OIG focused on three areas of performance that were aligned with the legislative purposes of the
ATA program:1 (1) the enhancement of antiterrorism skills of friendly countries, (2) the
strengthening of bilateral ties of the United States with friendly governments, and (3) the
increase in respect for human rights by sharing antiterrorism techniques. To determine whether
country-specific training programs met planned program goals and objectives, OIG analyzed and
compared strategic objectives provided by the Bureau of Counterterrorism (CT) with program
objectives provided by DS/T/ATA for 22 partner countries that received ATA training or
equipment between FYs 2009 and 2011. The OIG team also traveled to Sana’a, Yemen, and to
Baghdad, Iraq, to observe a country needs assessment performed jointly by CT and DS/T/ATA.
OIG met with officials from regional security offices in Algeria, Bangladesh, India, Lebanon,
and Yemen. OIG reviewed relevant laws and the U.S. Code related to human rights and met with
Bureau of Democracy, Human Rights and Labor (DRL), officials concerning their roles and
responsibilities with respect to the ATA program. OIG also reviewed ATA program material for
10 courses to determine whether information on human rights had been incorporated into the
curricula.

        To assess whether DS/T/ATA provided effective oversight of contracts and U.S.
Government-provided equipment, OIG met with the contracting officers for the ATA program
and reviewed relevant laws and the Foreign Affairs Manual and Foreign Affairs Handbook. OIG
observed ATA training courses and met with course instructors in Nasik (India), Dhaka
(Bangladesh), Amman (Jordan), Beirut (Lebanon), and Islamabad (Pakistan). OIG also reviewed
contract deliverables, including course tests, critiques, and after-action reports, to determine
whether contractors were complying with contract requirements. OIG conducted a physical
inventory of ATA program-provided weapons in Dhaka, Amman, Baghdad, Beirut, and
Islamabad. Further, OIG inventoried explosives detection equipment provided to Bangladeshi
bomb disposal units and analyzed ATA end-use monitoring reports for all countries in the North
Africa, Middle East, South Asia, and Central Asia regions. Lastly, OIG reviewed shipping
manifests and toured an ATA warehousing operation in Reston, Virginia.




1
    22 U.S. Code § 2349aa-1.

                                            23
                                       UNCLASSIFIED
                                       UNCLASSIFIED



Review of Internal Controls
        OIG performed steps to assess the adequacy of internal controls related to the monitoring
of contracts. For example, the OIG team observed that certain contracting officer’s representative
functions were not being performed on ATA programs in foreign countries.

Use of Computer-Processed Data
       OIG did not use computer-processed data for this evaluation.

       OIG conducted this evaluation from January to November 2011 in accordance with the
Quality Standards for Inspection and Evaluation, issued in January 2011 by the Council of the
Inspectors General on Integrity and Efficiency. OIG believes that the evidence obtained provides
a reasonable basis for the findings and conclusions based on the evaluation objectives.




                                            24
                                       UNCLASSIFIED
                                       UNCLASSIFIED



                                                                              Appendix B

                     Antiterrorism Assistance Program Courses
Chemical, Biological, Radiological, and Nuclear
Chemical, Biological, Radiological, and Nuclear – Hospital-Based Management of Mass
   Casualty Incidents
Chemical, Biological, Radiological, and Nuclear – Awareness
Chemical, Biological, Radiological, and Nuclear – Operations
Chemical, Biological, Radiological, and Nuclear – Refresher

Crisis Management
Critical Incident Management
Emergency Management Exercise Design
Hostage Negotiations

Cyber
Cyber Awareness for Prosecutors
Fundamentals of Network Security
Identification and Seizure of Digital Evidence
Identification and Seizure of Digital Evidence Train the Trainer
Introduction to Digital Forensics and Investigations
Proactive Internet Investigation Course

Explosives
Advanced Explosives Incident Countermeasures
Explosives Incident Countermeasures
Post Blast Investigations
Underwater Explosives Incident Countermeasures

Homeland Security
Airport Security Management
Border Control Management
Fraudulent Document Recognition
Quality Control in Civil Aviation Security

Investigative
Forensic Examination of Terrorist Crime Scenes
Interdicting Terrorist Activities
Interviewing Terrorist Suspects
Investigating Terrorist Incidents
Major Case Management




                                            25
                                       UNCLASSIFIED
                                       UNCLASSIFIED



Maritime
Maritime Interdiction of Terrorism
Maritime Port and Harbor Security Management

Management
Combating Domestic and Transnational Terrorism
Identifying and Developing Investigative Information
Integrating Counterterrorism Strategies at the National Level
Investigating Information Management
Police Leader’s Role in Combating Terrorism

Protection
Preventing Attacks on Soft Targets
Surveillance Detection
Very Important Person Protection
Very Important Person Protection Designated Defense Marksman
Very Important Person Protection Tactical Support Team
Vital Infrastructure Security

Tactical
Advanced Crisis Response Team
Crisis Response Team
Tactical Commander’s Course
Tactical Management of Special Events

Training
Counterterrorism Components of Academy Development
Instructor Development Course




                                            26
                                       UNCLASSIFIED
                                UNCLASSIFIED



                                                                                       Appendix C




                                                     Un;ted States Department of State

                                                     Washington, D.C. 20520



                                                   February 17,2012



MEMORANDUM

TO:                OIG - Harold W. G~ _

FROM:              CT - Robert F. God~c,~g

SUBJECT:           The Bureau of Counterterrorism's Responses to
                   Recommendations # 1 and #2 Contained the Office of Inspector
                   General's Draft Report Evaluation oJthe Antiterrorism
                   Assistance Program Jor Countries Under th e Bureaus oj Nea r
                   Eastern Affairs and South and Central Asian Affairs


Attached is the Bureau of Counterterrorism's response to your request of February
2, 2012, for written comments on the subject draft report. In addition, my staff has
sent an electronic copy of this official final response to Evelyn R. Klemstine,
Assistant Inspector General for Audits, at klemstinee@state.lwv, and Carol
Gorman, Deputy Assistant lnspector General , Middle East Region Operations, at
gormancn@state.gov.




Attachment: As stated.

cc: M - Patrick F. Kennedy




                                     27 

                                UNCLASSIFIED
                                UNCLASSIFIED





The Bureau of Counterterrorism's Responses to Recommendations #1 and #2
 contained in OIG-MERO's Evaluation of the A TA Program for NEA and
                             SCA Countries

The Bureau of Counterterrorism (CT) requests that the report's references to "the
Bureau of Diplomatic Security's Office of Antiterrorism Assistance (OSIA TA)
programs" or "OS/ATA programs" (e.g., on pages 4 and 18) be corrected to read
"the Antiterrorism Assistance (ATA) program in the countries under examination"
or "the A TA program." The latter language reflects the fact that the AT A program
is managed as a partnership between CT and the Bureau of Diplomatic Security
(OS), in which CT is responsible for policy formulation and oversight and DS for
program administration and implementation.

OIG/MERO Recommendation I. OIG recommends that the Bureau of
Diplomatic Security, in coordination with the Bureau of Counterterrorism,
establish a monitoring and evaluation system that includes clearly defined and
measurable outcome-oriented strategic goals and program objectives; measurable
performance indicators that clearly link to strategic goals and program objectives;
baseline data and annual performance targets for each indicator; timelines for
partner countries' self-sufficiency in training; and descriptions of how, when, and
by whom performance data will be collected, analyzed, and reported.

CT Response to Recommendation 1
The Bureau of Counterterrorism (CT) agrees with this recommendation and has
already begun to work with the Bureau of Diplomatic Security's Office of
Antiterrorism Assistance (OSH/ATA) to further improve the Antiterrorism
Assistance (ATA) program's current monitoring and evaluation system. Assisted
by a private consulting firm, CT and OS have begun to develop a results-based
management (REM) system that builds upon the existing assessment process and
includes all of the elements identified in the audit report. However, it should be
noted that self-sufficiency in training is not a strategic goal or programmatic
objective in all AT A partner nations. CT and DSIT1A T A will continue to develop
and implement this REM system over the coming months.


OIG Recommendation 2. OIG recommends that the Bureau of Diplomatic
Security and the Bureau of Counterterrorism, in coordination with the Bureau of
Democracy, Human Rights and Labor (ORL), establish and implement a process
that ensures effective consultation with ORL on the designation of foreign
countries that are eligible for assistance through the Antiterrorism




                                     28 

                                UNCLASSIFIED

                               UNCLASSIFIED





Assistance program as well as the training and equipment each designated country
is to receive.

Joint DS-CT -DRL Response to Recomme nda tion 2. OS and CT agree with this
recommendation and have already taken steps to implement it by agreeing with
ORL to collaborate in the execution of the following procedures. CT will obtain
ORL input and clearance on its annual review and revision of the list of ATA
partner nations. CT will obtain ORL clearance both on the ALOAC which
announces this list every year and on any additions to the list made outside the
established annual process. OS/T/ATA and CT wi ll obtain ORL's clearance on the
annual updates and any other revisions to the Country Assistance Plans (CAPs) for
countries identified by ORL as being of concern. Each CAP contains the strategic
and programmatic objectives as well as the planned course offeri ngs for an
individual ATA partner nation. Whenever possible, the CAPs also identify the law
enforcement entities that are to receive ATA assistance. OS/T/ATA also will
obtain DRL's clearance on any ATA course offer cable that offers a post a course
not listed in the previously cleared CAP for that country. Finally, OS/T IATA will
solicit DRL's input into any future revisions of the human rights module which is
an integral part of all ATA courses. It also should be noted that in May 20 I I
DS/T/ATA and ORL officials met to examine and discuss the current ATA human
rights module, which received DRL's approval.




                                    29 

                               UNCLASSIFIED

                             UNCLASSIFIED



                                                                                 Appendix D



                                                  United States Department of State

                                                  W(l,flliIlKIt/II. D.C. 20520

                                                  .....·..·..wllfe.grw


UNC LASS IFIED

INFORMATION M E MO TO OIG - DEPUTY INSP ECTOR GENERAL
HAROL D W. GE ISE L

FROM:      DS - Eric J.   Boswe ~
SU BJ ECT: DS Response to the Draft Report of Evaluation of the ATA Program
           for Countries under the Bureaus ofNEA and SCA - Report Number
           AUD/MERO-12-XX, dated February 20 12

     Attached are the Bureau of Diplomatic Security' s comments on
Recommendations I through 6 o f the subject report.

Auachment:
     As stated.




                               UNCLASSIF IED




                                  30 

                             UNCLASSIFIED
                                                 UNCLASSIFIED




                                                      UNCLASSIF IED




  os Responses to OIG Office Audits Draft Evaluation oflhe ATA Program
                            for Countries under NEA and SCA Bureaus
                               (AUD/ME RO- 12-XX, February 2012)

O IG Recommendation I. OIG recommends that the Bureau of Dipl omatic
Security (DS), in coordination with the Bureau of Counterterrorism, establ ish a
monitoring and evaluation system that includes clearly de fi ned and measurable
outcome-oriented strategic goa ls and program objectives; measurable performance
indicators that clearly link to strategic goals and program objectives; baseline data
and annual performance targets fo r each indicator; ti melines for partner countries'
self-sumciency in training; and descriptions of how, when, and by whom
performance data wi ll be collected, analyzed , and reported.

os Response 10 Recommendation I. DS does not full y concur with this draft
recommendation as wrinen . The fi ndings for Recommendation I assert
generalizations that the Office of Antiterrori sm Assistance (OSff/ATA) "had not
developed specific, mcasureable, and outcome-oriented program objectives or
implemented a mechanism for program evaluation." Those generalizations do not
reflect the facts or acknowledge the complex interrelationships involved in
administration of the program .

Concerning the program objectives, the point not adequately clarified is that
although the policy-based strategic objecti ves are central to the focu s of the whole
implementation process, they are not the responsibility of DS to formulate. Once
st rategic objectives are received fro m CT, DSITIATA has a very well-defined
process by which those strategic objectives ' arc developed within OSITIAT A into
programmatic objecti ves. 2 At that point, the applicabl e "Critical Capabilities" ­
drawn from a comprehensive list of23 "Critical Capabilities" - necessary to
achieve the spec ifi ed programmatic objectives indi cate the speci fi c training courses
that the program manager may select in the preparation of a detailed Country
Assistance Plan. Thus, OS agrees that the strategic objectives provided to
Dsrr/ ATA should be as specific as possible. Sincc they are formu lated at a policy
level , they tend to be general in nature and are refined into more specific
programmatic objectives only in the subsequent assessment and planning process.




' An " . .. mpl" of a n.a l"s;, o bjKtiv" is, " I" Olcct lhc pIInno;r otlliQII's lIaliollallcadcrsllip.-
1 An " .ample of a programmatic o bj"ctiv" is, "Tra in and equip a d ignitary protection IIn it: '


                                                       lJ NC I.ASS IEIED




                                                      31 

                                                 UNCLASSIFIED

                                UNCLASSIFIED




                                   UNCLASSIFIED


DSfTlAT A's programmatic objectives are already measurable. Several years ago,
the office deve loped the objectively-based Pe rformance Measures of Effectiveness
( PME) system and uses it as the primary mechanism for program evaluation. The
PM E system em ploys Ihe services of subject mailer experts on the assessment team
drawn From the interagency law en forceme nt com munity. These experts utili z.e
detailed checklists and a si mple Likert scale (scoring I through 5) to make
capability assessments on initia l visits to a participating nation, as well as on
subsequent visits fo r purposes of both program eval uation and updated planning.
In addition, the PM E system was updated in early 20 11 to eliminate incorporati on
o f inadequate threat assessments al the governments' capabilities level , and now
 focuses mainl y and more rel iably on actual skills and knowledge-based
performance sta ndards.

The measurement of the success in achieving the programmatic objectives is
already in trans ition to an outcome-based standard. By mutual agreeme nt last year
w ith the CT and the Office of U.S. Foreign Assistance Resources (F), DSffl ATA
will phase out use of the output-based measure ment of numbers of students and
will replace it with number of programmatic objectives achieved annually on a
program-wide basis. This new evalualion standard is expected to be more
indicative of long-term impact of the program and consistent w ith guidance being
implemented by F Ihroughout the foreign assistance programs.

A number of other relaled misunderstandi ngs in the findings also warrant comment
for clarification . The draft report implies the non-ex istence of program objectives
for 20 countries in the program . However, the program objecti ves simply had not
been prepared yet for the c urrent year (20 12) because the office was still awaiting
formu lation, approval and receipt o f the updated strategic objectives upon which
they are based. T he prior year's (20 II ) strategic and programmatic objectives
were made available for review. Also, DSff/ATA has avai lable well-defi ned
programmatic objectives for every AT A program partner nation for several years.

 In add ition, the draft report asserts that "Other outcome measures that could be
 useful to assess the effectiveness of the AT A program include stude nt placement
 into police units land] how long the students stay in those positions or police
 units." DSn l AT A implemented the practice of requesting a formal memorandum
 of intent (MO l) with wi lling partici pating nations. These MO ls stipulate student
 placement and reasonable retention in appropriate police units. In reality, the
 documents (when successfu lly executed by the embassies) may be helpful to a
 limited degree fo r persuas ive purposes, but carry no legal or practical
 enforceability.
                                                                                        ,
                                    UNCLASSifiED




                                     32 

                                UNCLASSIFIED

                                 UNCLASSIFIED




                                    UNCLASSIFIED




Lastly, the find ings and recommendation suggest a need for "timelines fo r partner
countries' self-sufficiency in training." Recognition needs to be made of the
difference between country programs that arc fu nded at just the training level, and
those that are funded at the more demanding development level. Only seven of the
current 62 participating nations ' programs are fu nded at or above the $5 million
level, which roughly equates to a threshold development level of activity
warranting establishment of an in-country manager for ongoing direct coordination
and delivery oversight. In those seven countries, numerous methodologies are
used to advance the partic ipating nations toward self-sustainability. These
methodologies include, but are not limited to, upgrades in classroom and range
facilities. instructor development courses, transfer of student and fac ilitator course
materials and equipment, phased inclusion and gradual full assumption of teaching
responsibility by the partner nations' instructors in the teachi ng cadre, and ongoing
contact with previously trained operational un its for training effectiveness
 feedback . The other 57 countries are funded at only training levels. This means
 that courses are offered only intermittently, there is no permanent program
 management presence in-country, and the opportunities for regularly encouraging
 and evaluating sustainment are very limited. If sustainment of a majority of
 participating nations is mandated as a goal of the program, then realistically there
 are only two solutions: either more funding broadly distributed ; or fewer
 participating nations receiving larger shares of available fu nding.

In summary, Dsrrl AT A has already developed "speci fie , measureable, and
outcome-oriented program objectives" and has "i mplemented a mechanism for
program eva luation." Also, the assessment, delivery and review process and the
development and updating of country assistance plans (CAPs) already link the
programmatic objectives to the strategic objectives and fac ilitate the regular
collection of basel ine and subsequent performance data at appropriate intervals.
OS can agree with O IG that a reasonable recommendation in this program area
would include: CT should provide strategic objectives that are as specific as
possible.

OIG Recommendat ion 2. OIG recommends that the Bureau of Di plomatic
Security and the Bureau of Counterterrorism, in coordination wi lh the Bureau of
Democracy, Human Rights and Labor (DRL), establish and implement a process
that ensures effective consultation wi lh DRL on the designation of foreign
countries that are eligible for assistance through the Antiterrorism
Assistance program as well as the train ing and equipment each designated country
is to receive.

                                                                                          3
                                     UNCI.ASSIFIED




                                      33 

                                 UNCLASSIFIED

                                UNCLASSIFIED




                                   UNCLASSIFIED




J oint DS-CT Response to Reco mmendation 2. OS and CT concur with this
recom mendation.


OIG Reco mmenda tion 3. O IG recommends that the Bureau of Diplomatic
Security a ppoint a contracting o ffi cer's representative (COR) to oversee
Antiterrorism Assistance contracts and implement a standardized reporting process
for in-country oversight of contracts for Antiterrorism Assistance program training
in partner countries.

DS Respo nse 10 Recommenda tion 3. OS does not concur with the first part of
this draft recommendation to appoint a COR. DsrrlAT A already has a COR who
addresses all issues related to contracts, including in-country training services in
partner countries. The COR provides oversight for the contracts, ensuring the
vendors are in compl iance with the terms and conditions o f the agreements. The
COR is a GS employee. who has served as a COR si nce 1990 and possesses a COR
certification val id until August 201 4. Thus, DSrrlATA believes that the first
portion of the recommendation had al ready been accomplished and should be
om itlcd.

Concerning " in-country oversight of contracts," Osrr/AT A responds that due to
the volume of training del iveries conducted on an annual bas is, e.g., 537 in FY
2011 . it is cost prohibi tive for DSfTlAT A personnel to attend every training event.
OSrrlATA made such an attempt with the former On-Site Representative program,
but had to discontinue it due to excessive costs and the determination of other
reasonable overs ight measures. These measures include: DSff/ATA conducts both
random and independent third-party evaluations of training deliveries, domestically
and overseas, to assess contract instructors" abi lities and their adherence to the
Dsr rlATA instructor policies and curriculum . OSrrlAT A also conducts pre- and
post-testing o f the participants to measure increases in knowledge and skills. In
addition. OS ff/ATA requires the lead instructors to submit detai led after action
repol1S that are analyzed by all the concemed di visions within the organ ization.

However. as a means of reasonable and cost efficient compliance with this portion
of the recommendation in those events where a DSff/AT A representative wil l not
be in attendance at a train ing delivery, the program manager will request that the
responsib le Regional Security Office confirm in writing to AT A:

    •   the training venue is adequate with regard to vendor responsibilities

                                                                                      4
                                    UNCLASS IFtED




                                     34 

                                UNCLASSIFIED

                                UNCLASSIFIED




                                    UNCLASSIFIED


   •   the approved instructors are present
   •   the instructors are using the appropriate version of the training materials
   •   the instructors have provided the participants with their specified training
       materials and equipment
   •   the partici pants appear to be actively engaged and understand the material
   •   al l testing, skills evaluation, and critique instruments are properly
       administered
   •   all locally procured support services are provided per teons of the
       agreements
   •   the instruct ional team's draft After Action Report is prepared upon
       conclusion of the session.

OIG Recommendation 4. OIG recommends that the Bureau ofOiplomatic
Security periodically reconcile its electronic master database to ensure that the
database includes records of all weapon transfers.

DS Response to Recommendation 4. OS does not concur with this draft
recommendation. OSfTl ATA maintains two databases for weapons accountability:
a master database and the End Use Monitor (EUM) database. The master database
encompasses all weapons purchased by DSrrl ATA and sh ipped either overseas as
part of a grant equipment package or to a domestic traini ng facil ity for training
support. Each weapon on the master database can be verifi ed by purchase receipt,
shipping documents, and receipt of acceptance at the final destination. The EUM
database lists all weapons positioned overseas that have either been shipped by
DSrrI AT A to a partner nation, or weapons that have been purchased and signed
over from another U.S. Government entity for use in the AT A program in a
specific country. Due to this variable, not all weapons on the EUM database can
be tracked to the point of originfpoint of purchase. For accountability purposes
only, DSr r /ATA has assumed responsi bility fo r these weapons under the EUM
program. Thus, the apparent di screpancy between the master database and the
 EUM database found during the OIG inspection can be reasonably explained given
not all weapons in the program were purchased and issued by DsrrIATA.

OIC Recommendation 5. O IG recommends that the Bureau of Diplomatic
Security establish a process, be fore equipment is provided to partner countries, to
determi ne whether the equipment will be used and whether the equipment is
compatibl e wi th and at an appropriate level for the partner country.



                                                                                       ,
                                     UNCLASSIFI ED




                                     35 

                                UNCLASSIFIED

                              UNCLASSIFIED




                                  UNCLASS IFIED


DS Respo nse to Recommendation S. OS concurs wi th this draft
recommendation.

ole Recommend a tion 6. OIG recommends that the Bureau ofOiplomatic
Security review the types of the remaining equipment for the Iraq program stored
in the Northern Vi rginia warehouse. evaluate the equipment's utili ty, and
determine an appropriate disposition.

DS Respo nse to Recommendation 6. OS concurs with this draft
recom mendation.




                                                                                   6
                                   UNCLASSIFIEP




                                   36 

                              UNCLASSIFIED

                                       UNCLASSIFIED



Major Contributors to This Report
Carol Gorman, Deputy Assistant Inspector General
Middle East Region Operations
Office of Audits

Sam Bernet, Director
Middle East Region Operations
Office of Audits

W. Preston Jacobs, Audit Manager
Middle East Region Operations
Office of Audits

Victoria Ashley, Supervisory Auditor
Middle East Region Operations
Office of Audits

Janet Mayland, Management and Program Analyst
Middle East Region Operations
Office of Audits

David Miller, Management and Program Analyst
Middle East Region Operations
Office of Audits

Gordon Parker, Auditor
Middle East Region Operations
Office of Audits

David Zweifel, Management and Program Analyst
Middle East Region Operations
Office of Audits

Lee Taylor, Contractor
BCP International, LTD




                                            37
                                       UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

